La
I

C@OCKLE

Legal Bri E-Mail Address:
© 8 rae Fs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-74

UNITED STATES OF AMERICA, et al.,
Petitioners,

v.
IMAGE PROCESSING TECHNOLOGIES LLC, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 25th day of August, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF IN OPPOSITION FOR RESPONDENTS VILOX
TECHNOLOGIES, LLC AND EUGENE H. LUOMA in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:
ROBERT GREENSPOON
Counsel of Record
FLACHSBART & GREENSPOON, LLC
333 N. Michigan Avenue, Suite 2700
Chicago, Illinois 60601
312-551-9500

rpg@fg-law.com
Counsel for Vilox Technologies, LLC

EUGENE H. LUOMA
4423 Normanna Road
Duluth, Minnesota 55803
218-391-8494
gene@zipitclean.com

Pro se for Eugene H. Luoma

Subscribed and sworn to before me this 25th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

he ome Kepee. 0. Las Qu draw b. CL

Affiant 40073

My Comm. Exp. September 5, 2023,

 

 

Notary Public
Jeffrey B. Wall

Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States of America

Alexander R. Schlee

Schlee IP International, PC

917 Manhattan Beach Blvd.

Manhattan Beach, CA 90266

Direct: 310-545-9851

Email: info@schleeip.com

Counsel for GT Water Products in 19-2315 (adverse Mr. Luoma)
